                   Improvements Are Needed to Ensure
                  Relocation Advances Are Repaid Timely

                                      May 2004

                       Reference Number: 2004-10-092




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   May 13, 2004



       MEMORANDUM FOR CHIEF FINANCIAL OFFICER


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Improvements Are Needed to Ensure
                                      Relocation Advances Are Repaid Timely (Audit # 200310020)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Relocation Advance procedures. The overall objective of this review was to determine
       whether procedures and practices are adequate to facilitate timely repayment of
       relocation advances. The IRS has delayed implementing procedures to comply with
       Federal Government requirements for collecting administrative debts until it has
       completed its negotiations with the National Treasury Employees Union (NTEU) on how
       to implement debt collection policies and procedures.
       In summary, the IRS needs to ensure relocation advances are repaid timely. As of
       May 2, 2003, there were 366 IRS employee relocation advances outstanding (some
       dating back to 1991) with balances totaling approximately $1.4 million. Of these,
       200 (55 percent) advances totaling $492,000 had been outstanding for over 2 years—
       well beyond the time period needed to repay the advanced amounts, since these types
       of expenses are usually the first expenses to be incurred and reimbursed. An additional
       100 (27 percent) advances totaling approximately $145,000 had been previously written
       off as uncollectible; some of these also dated back to 1991. Procedures to monitor
       outstanding advances have not been fully implemented, and procedures to monitor
       employee payment arrangements have not been established.
       We recommended the Chief Financial Officer (CFO) promptly implement the Federal
       Claims Collections Standards (FCCS)1 and the requirements of the Debt Collection
       Improvement Act of 1996,2 and monitor all outstanding relocation advances.
       Additionally, the CFO should revise the Interim Relocation Handbook to specify when a
       relocation advance should be repaid. Finally, the CFO should issue guidelines for
       establishing installment agreements and a system to monitor payments.
       1
           31 C.F.R. Parts 900-904.
       2
           Pub. L. No. 104-134.
                                          2

Management’s Response: IRS management generally agreed with our
recommendations. However, the CFO stated that the Labor Relations staff has advised
IRS management of the requirement to negotiate implementation of the debt collection
policies and procedures with the NTEU. Once negotiations with the NTEU are
completed, the CFO will issue procedures to comply with requirements of the Debt
Collection Improvement Act of 1996 and the FCCS. In addition, the IRS will revise the
Relocation Handbook to specify that all advances must be repaid when vouchers are
filed, and IRS management will establish employee installment agreements and provide
a method or system to monitor compliance with the agreements. Lastly, the IRS has
begun to notify the employee’s supervisor when an employee has an overdue relocation
advance. Management’s complete response to the draft report is included as
Appendix IV.
Office of Audit Comment: We believe delaying some corrective actions pending
completion of negotiations with the NTEU is unnecessary. It has been 8 years since the
Debt Collection Improvement Act of 1996 became law. The IRS should have
implemented procedures to comply with the law long before now. Moreover, the current
negotiations with the NTEU to obtain formal agreement over these procedures have
taken over 10 months, which does not appear reasonable based on the scope of the
proposed procedures.
Further, IRS management did not completely address our recommendation for the CFO
to implement procedures to contact employees who have not filed a relocation voucher
within 3 to 6 months of requesting an advance. IRS management’s proposal to
mandate that all advances be repaid when the relocation vouchers are filed does not
address those employees who do not file a voucher timely or at all. While we still
believe our recommendation is worthwhile, we do not intend to elevate our
disagreement concerning this matter to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                                     Improvements Are Needed to Ensure
                                    Relocation Advances Are Repaid Timely



                                                  Table of Contents


Background ............................................................................................... Page 1
Better Procedures Are Needed to Ensure Prompt Repayment
of Relocation Advances............................................................................. Page 1
         Recommendations 1 and 2: ............................................................ Page 5
         Recommendation 3 and 4: .............................................................. Page 6

Procedures to Establish and Monitor Employees’
Payment Arrangements Are Needed......................................................... Page 7
         Recommendation 5: ........................................................................ Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
                           Improvements Are Needed to Ensure
                          Relocation Advances Are Repaid Timely

                                   If a transferred Federal Government employee or a new hire
 Background
                                   is authorized to relocate at Government expense, the Federal
                                   Travel Regulations provide that the employee may be
                                   advanced funds to pay for the following types of expenses:
                                      •   A house-hunting trip.
                                      •   Travel to the new location (also known as “en route”
                                          travel).
                                      •   Temporary quarters.
                                   When Internal Revenue Service (IRS) employees file
                                   relocation vouchers to be reimbursed for these types of
                                   expenses, they should list the amount of the advanced funds
                                   that should be subtracted from the amount they are
                                   reimbursed. If they do not, they will be reimbursed funds
                                   that they have already received in advance and will need to
                                   pay back the advanced funds. Additionally, if employees
                                   are advanced funds for these types of expenses and do not
                                   incur the expenses, or if they incur an expense for less than
                                   the amount of the advance, they need to pay back the
                                   amount of the advance that was not used for the relocation
                                   expenses.
                                   We performed this audit to determine whether the IRS has
                                   an adequate process to ensure relocation reimbursements are
                                   properly applied to outstanding advances and to collect any
                                   overdue amounts. We conducted our audit during the
                                   period May through September 2003 at the IRS Chief
                                   Financial Officer’s (CFO) Policy and Procedures Unit in
                                   Bethesda, Maryland, and at the Beckley Finance Center in
                                   Beckley, West Virginia. The audit was performed in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.

                                   The IRS underwent a significant reorganization in 1999. As
Better Procedures Are Needed to
                                   part of the reorganization, many of the accounting functions
Ensure Prompt Repayment of
                                   and records were centralized. The Beckley Finance Center
Relocation Advances
                                   became responsible for processing all IRS employee
                                   relocations. The relocation files, which had been kept in the
                                   accounting offices for each region, were transferred to the


                                                                                          Page 1
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely

         Beckley Finance Center. However, many of the files
         received from the regional offices were incomplete.
         In June 2002, the Beckley Finance Center began reviewing
         all the relocation files to prepare for a data conversion from
         the current financial system to a new system. This review
         was to determine whether there was adequate
         documentation in the files (a processed Advance of Funds
         Application and Account [Form 1038]) to confirm that
         employees had actually received relocation advances and to
         determine whether they were within the applicable statute of
         limitations period for debt collection.
         As of May 2, 2003, the IRS had reviewed a total of
         105 relocation advances (totaling $170,000) that did not
         appear to be collectible because of the length of time they
         had been outstanding or the lack of documentation to
         substantiate the debts. Based on the review, 100 relocation
         advances totaling approximately $145,000 were written off
         and 5 were determined to be collectible. For some of these
         105 advances, the last activity (such as vouchers, payments,
         or collection actions) shown was in 1991. The reasons for
         and number of accounts written off are shown below.

          No documentation (Form 1038) on file                  58
          Statute of limitations expired                        39
          Uncollectible (employee deceased)                      3
          Total                                                100

         There was no information in the files to determine whether
         attempts were made to collect these advances before the
         files were sent to the Beckley Finance Center. For the
         amounts written off because there was no documentation of
         the advance (Form 1038) on file, the Beckley Finance
         Center staff stated that they attempted to contact the
         managers in the field offices to locate a copy of the required
         supporting documents; however, the documents could not
         be found.
         In addition, 366 relocation advances totaling approximately
         $1.4 million were outstanding as of May 2, 2003 (some

                                                                Page 2
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely

         dating back to 1991). Of these, 200 advances totaling
         $492,000 had been outstanding for over 2 years—well
         beyond the time period needed to repay the advanced
         amounts, since these types of expenses are usually the first
         expenses to be incurred and reimbursed. We reviewed a
         random sample of 64 advances totaling $147,000 that had
         been outstanding for over 2 years to determine what actions
         the IRS had taken to collect the outstanding balances. Of
         these 64 advances, 10 totaling approximately $50,000 were
         for employees who had never filed a relocation voucher.
         The other 54 were for employees who had filed relocation
         vouchers but still had outstanding advances totaling
         approximately $97,000.
         For 53 of the 64 advances in our sample, the Beckley
         Finance Center had contacted the employees to request
         repayment. Of these 53 advances, 11 were paid off and
         7 had payment arrangements to fully repay; however, 35 did
         not have payment arrangements and were not fully repaid.
         The Beckley Finance Center has not taken any follow-up
         action on advances since the initial contacts were made with
         the employees to collect the outstanding amounts. The
         Beckley staff stopped collection efforts at the direction of
         the CFO’s office pending the implementation of all of the
         debt collection requirements.
         Debt collection requirements
         The Federal Claims Collections Standards (FCCS),1 the
         Debt Collection Act of 1982,2 and the Debt Collection
         Improvement Act of 19963 specify the steps that all Federal
         Government agencies are to follow in developing
         procedures to pursue collection action on nontax debts owed
         to the United States. Relocation advances provided to
         employees are considered nontax debts once an agency
         official determines that an amount is owed to the Federal
         Government.
         The FCCS provide agencies with collection tools including:
             •   The issuance of letters demanding payment.

         1
           31 C.F.R. Parts 900-904.
         2
           Pub. L. No. 97-365 (1982).
         3
           Pub. L. No. 104-134.
                                                               Page 3
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely

             •    Salary offset by agencies.
             •    The referral of debts to the Department of the
                  Treasury, Debt Management Services, for offset
                  against Federal payments due the employee or
                  former employee when the debts have been
                  delinquent for 180 days.4
         The FCCS require that a written “demand letter” be sent
         promptly to a debtor to inform him or her of the
         consequences of failing to cooperate with an agency to
         resolve the debt. The demand letter should include the:
             •    Basis for the indebtedness and the rights, if any, the
                  debtor may have to seek review within the agency.
             •    Interest, penalties, or administrative costs that could
                  be imposed.
             •    Date by which payment should be made to avoid late
                  charges and enforced collection.
             •    Name, address, and telephone number of a contact
                  person or office within the agency.
         The IRS has not implemented procedures to comply with
         Federal Government requirements for collecting
         administrative debt, such as sending demand letters to
         employees with outstanding relocation advances. IRS
         officials are aware of the need to implement these Federal
         requirements but have delayed implementation because of
         concerns that the National Treasury Employees Union
         (NTEU) might file an unfair labor practice charge. In
         June 2002, the IRS began negotiating with the NTEU on
         how to implement the required debt collection procedures.
         Pending any agreement with the Union, no actions have
         been taken to collect administrative debts from employees
         since July 2002.
         We believe this delay and additional negotiations were
         unnecessary. As reflected in the National Agreement, the
         IRS and NTEU negotiated employee debt collection issues
         during those negotiations. As a result, the IRS is not

         4
          A debt is delinquent if it is not paid by the date specified in the initial
         written demand for payment (generally 30 days).
                                                                              Page 4
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely

         required to negotiate any additional debt collection
         procedures at this time and should implement the statutory
         and regulatory debt collection procedures as soon as
         practicable. Any additional procedures can be discussed
         after the current National Agreement expires.
         In addition to implementing the requirements of the Debt
         Collection Improvement Act of 1996, the IRS needs to
         establish procedures to contact employees who have not
         filed relocation vouchers within a reasonable time
         (3 to 6 months) of requesting an advance to determine the
         status of their relocations and the dates they plan to file
         vouchers. If these procedures were enacted, it would
         significantly reduce outstanding amounts and the need to
         initiate collection action.
         Recommendations

         The CFO should take the following actions:
         1. Implement all of the applicable procedures required by
            the FCCS and the Debt Collection Improvement Act of
            1996.
         Management’s Response: The CFO hopes to complete
         negotiations with the NTEU within the next few months and
         plans to issue procedures to ensure compliance with
         requirements of the Debt Collection Improvement Act of
         1996 and the FCCS by October 1, 2004.
         Office of Audit Comment: We believe delaying corrective
         actions pending completion of negotiations with the NTEU
         is unnecessary. It has been 8 years since the Debt
         Collection Improvement Act of 1996 became law. The IRS
         should have implemented procedures to comply with the
         law long before now. Moreover, the current negotiations
         with the NTEU to obtain formal agreement over these
         procedures have taken over 10 months, which does not
         appear reasonable based on the scope of the proposed
         procedures.
         2. Notify supervisors of employees with overdue relocation
            advances to remind their employees of the obligation to
            repay outstanding amounts.


                                                                Page 5
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely

         Management’s Response: On an interim basis, the Beckley
         Finance Center is sending notices to employees who fail to
         pay a debt owed to the IRS; a copy of the notice is furnished
         to the supervisor when the employee fails to pay a debt.
         Once the debt collection procedures are implemented,
         demand letters will be sent to employees, with a copy going
         to each employee’s supervisor.
         3. Revise the Interim Relocation Handbook to specify how
            soon a relocation advance must be repaid.
         Management’s Response: The CFO will revise the Interim
         Relocation Handbook to specify that all advances must be
         repaid when the vouchers are filed. The CFO has submitted
         a Quarterly Notice to the NTEU to negotiate requirements
         for advance repayment.
         Office of Audit Comment: Since the IRS and NTEU have
         already negotiated employee debt collection issues, we
         believe there is no need to delay this corrective action.
         4. Implement procedures to contact employees who have
            not filed relocation vouchers within 3 to 6 months of
            requesting an advance to determine the status of their
            relocations and the dates they plan to repay the
            advances.
         Management’s Response: The CFO will revise the
         Relocation Handbook to include procedures making it
         mandatory that all advances be repaid when the relocation
         vouchers are filed. In addition, the CFO will need to revise
         the following forms: Form 1038 and Relocation Voucher
         (Form 8741).
         Office of Audit Comment: We agree with IRS
         management’s decision to make it mandatory for all
         advances to be repaid when the relocation vouchers are
         filed. However, this action will not address those instances
         in which an employee does not file a voucher timely or at
         all. We believe formal follow-up is required in those cases
         in which an employee has not filed a voucher within 3 to
         6 months of requesting an advance.




                                                               Page 6
                         Improvements Are Needed to Ensure
                        Relocation Advances Are Repaid Timely

                                 IRS employees are allowed to make payment arrangements
Procedures to Establish and
                                 when they are unable to pay off their outstanding
Monitor Employees’ Payment
                                 administrative debts. For 9 of the 64 outstanding relocation
Arrangements Are Needed
                                 advances we reviewed, the IRS permitted employees to
                                 make the payments in installments or to set up salary
                                 deductions.
                                 Employees making installment payments send their
                                 payments directly to the Beckley Debt Collection Unit
                                 where the payments are posted to the Automated Financial
                                 System.5 However, there is no system to monitor whether
                                 employees made the agreed-upon payments. The Beckley
                                 Debt Collection Unit staff believes the responsibility to
                                 ensure repayment of a relocation advance is between the
                                 employee and his or her immediate supervisor. Moreover,
                                 the IRS has not implemented procedures to define how and
                                 when installment agreements may be established for
                                 employee debts in accordance with the FCCS.
                                 Of the nine employees who agreed to pay back their
                                 relocation advances in installments, three were making
                                 payments according to their agreements, three were making
                                 payments but the terms were not recorded in the case
                                 histories, two were making payments but not in accordance
                                 with the terms of their agreements, and one had paid in full.
                                 Without procedures to establish and monitor installment
                                 agreements, the IRS cannot determine which employees
                                 have defaulted on their payment arrangements.
                                 Recommendation

                                 5. The CFO should issue guidelines for establishing
                                    employee installment agreements and provide an
                                    appropriate method or system to monitor compliance
                                    with the agreements.
                                 Management’s Response: The CFO will implement debt
                                 collection policies and procedures, which will provide for
                                 the establishment of installment agreements. The IRS may
                                 accept payment in regular installments, if a debtor is
                                 financially unable to pay a debt in one lump sum.
                                 5
                                   A computer-based financial accounting system used by the IRS to
                                 track appropriations and expenditures.
                                                                                               Page 7
                            Improvements Are Needed to Ensure
                           Relocation Advances Are Repaid Timely

                                                                                   Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective was to determine whether procedures and practices are adequate to
facilitate timely repayment of relocation advances. The scope of the audit involved reviewing a
sample of outstanding relocation advances and 100 of 105 relocation advances that had been
written off as of May 2, 2003. To accomplish our objective, we:
I. Determined whether procedures and practices were adequate to facilitate timely repayment of
   relocation advances. We selected a random sample from a universe of 366 relocation
   advances that had been outstanding as of May 2, 2003. Of the 366 relocation advances,
   200 had been outstanding for over 2 years. We selected a random sample of 64 advances
   from the 200 to evaluate the repayment process—the sample was not intended to provide a
   statistical projection.
II. Determined whether procedures and practices were adequate to prevent the unnecessary
    write-off of outstanding relocation advances from current and former employees.
III. Interviewed Policies and Procedures Unit management and determined whether new
     procedures (yet to be issued) will address any deficiencies that we identified.




                                                                                         Page 8
                           Improvements Are Needed to Ensure
                          Relocation Advances Are Repaid Timely

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Charles Ekunwe, Senior Auditor
Kenneth E. Henderson, Senior Auditor
Rosemarie Maribello, Senior Auditor




                                                                                      Page 9
                          Improvements Are Needed to Ensure
                         Relocation Advances Are Repaid Timely

                                                                 Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Beckley Finance Center OS:CFO:I:BFC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief, Agency-Wide Shared Services OS:A




                                                                      Page 10
    Improvements Are Needed to Ensure
   Relocation Advances Are Repaid Timely

                                            Appendix IV


Management’s Response to the Draft Report




                                                 Page 11
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 12
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 13
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 14
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 15
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 16
 Improvements Are Needed to Ensure
Relocation Advances Are Repaid Timely




                                        Page 17
